No. 20-___
IN THE

Supreme Court of the United States
_________
NATHANIEL OGLE,
Petitioner,
v.
OHIO CIVIL SERVICE EMPLOYEES ASSOCIATION,
AFSCME LOCAL 11, AFL-CIO
Respondent.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
_________
PETITION FOR WRIT OF CERTIORARI
_________
WILLIAM MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioner

QUESTION PRESENTED
Is there a “good faith defense” to 42 U.S.C. § 1983
that shields a defendant from damages liability for depriving citizens of their constitutional rights if the defendant acted under color of a law before it was held
unconstitutional?

(i)

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
Petitioner, a Plaintiff-Appellant in the court below,
is Nathaniel Ogle.
Respondent, Defendant-Appellee in the court below,
is the Ohio Civil Service Employees Association, AFSCME Local 11, AFL-CIO.
Because no Petitioner is a corporation, a corporate
disclosure statement is not required under Supreme
Court Rule 29.6.

TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT .........................................ii
TABLE OF AUTHORITIES....................................... vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTES INVOLVED ............................................ 1
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE PETITION ......... 5
A. The Wyatt Court Did Not Suggest That a
Defendant’s Reliance on a Statute Should Be
an Affirmative Defense to Section 1983 ................ 7
B. A Good Faith Defense Conflicts with Section
1983’s Text and Retroactivity Law...................... 11
1. A Good Faith Defense Conflicts with
Section 1983’s Text ......................................... 11
2. A Good Faith Defense Conflicts with This
Court’s Retroactivity Doctrine ....................... 14
C. Circuit Courts Disagree on Whether There Is
A Good Faith Defense and the Justifications
For That Defense ................................................. 15
1. Policy Interests in Fairness and Equality
Do Not Justify a Good Faith Defense ............ 18
2. An Analogy to Abuse of Process Does Not
Justify Creating a Good Faith Defense ......... 21

(iii)

iv
TABLE OF CONTENTS—Continued
Page
D.

It Is Important That the Court Finally Resolve
Whether Congress Provided a Good Faith
Defense to Section 1983 .................................... 22

CONCLUSION .......................................................... 24
APPENDIX
Opinion of the U.S. Court of Appeals for the Sixth
Circuit, 951 F.3d 794 (Mar. 5, 2020) ...................... 1a
Opinion and Order of the U.S. District Court for the
Southern District of Ohio, 397 F. Supp. 3d 1076
(July 17, 2019) ........................................................ 6a
Order of the U.S. Court of Appeals for the Sixth
Circuit Denying Rehearing En Banc (May 13,
2020) ...................................................................... 33a

TABLE OF AUTHORITIES
Page(s)
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977)..................................................2
Anderson v. Myers,
182 F. 223 (C.C.D. Md. 1910) ................................ 13
Danielson v. Inslee,
945 F.3d 1096 (9th Cir. 2019) ....................... passim
Diamond v. Pa. State Educ. Ass'n,
972 F.3d 262 (3d Cir. 2020) ........................... passim
Guidry v. Sheet Metal Workers Nat’l Pension Fund,
493 U.S. 365 (1990)................................................ 18
Guinn v. United States,
238 U.S. 347 (1915)................................................ 12
Harper v. Va. Dep't of Tax'n,
509 U.S. 86 (1993).................................................. 14
Imbler v. Pachtman,
424 U.S. 409 (1976)................................................ 12
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018).................................... passim
Janus v. AFSCME, Council 31,
942 F.3d 352 (7th Cir. 2019) ......................... passim
Jordan v. Fox, Rothschild, O’Brien & Frankel,
20 F.3d 1250 (3d Cir. 1994) ................................... 10
(v)

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Lee v. Ohio Educ. Ass'n,
951 F.3d 386 (6th Cir. 2020) ............................... 3, 4
Lugar v. Edmondson Oil Co.,
457 U.S. 922 (1982)..................................................5
Manuel v. City of Joliet,
137 S. Ct. 911 (2017).................................... 7, 21, 22
Myers v. Anderson,
238 U.S. 368 (1915)................................................ 12
Owen v. City of Indep.,
445 U.S. 622 (1980).......................................... 19, 20
Pinsky v. Duncan,
79 F.3d 306 (2d Cir. 1996) ..................................... 10
Rehberg v. Paulk,
566 U.S. 356 (2012).................................... 12, 13, 21
Reynoldsville Casket Co. v. Hyde,
514 U.S. 749 (1995)...................................... 6, 14, 15
Richardson v. McKnight,
521 U.S. 399 (1997)............................................ 5, 13
Thomas v. Collins,
323 U.S. 516 (1945)................................................ 22
Tower v. Glover,
467 U.S. 914 (1984)................................................ 18
Tucker v. Interscope Records Inc.,
515 F.3d 1019 (9th Cir. 2008) ............................... 22

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Wholean v. CSEA,
955 F.3d 332 (2d Cir. 2020) ......................... 4, 11, 17
Wyatt v. Cole,
504 U.S. 158 (1992)........................................ passim
Wyatt v. Cole,
994 F.2d 1113 (5th Cir. 1993) ......................... 10, 11
Constitution & Statutes
U.S. Const.
amend. I ......................................................... passim
Federal Statutes
28 U.S.C. § 1254(1) ..................................................1
42 U.S.C. § 1983............................................. passim
Other Authorities
8 Am. Law of Torts § 28:32 (2019) ............................ 22
William Baude, Is Qualified Immunity Unlawful?,
106 Cal. L. Rev. 45 (2018) ..................................... 14

1
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Sixth Circuit is reported at 951 F.3d 794 and
reproduced at Pet.App. 1a. The Sixth Circuit order
denying rehearing en banc is reproduced at Pet.App.
33a. The Sixth Circuit affirmed an order and opinion
by the United States District Court for the Southern
District of Ohio, reported at 397 F. Supp. 3d 1076 and
reproduced at Pet.App. 6a, that dismissed the Petitioner’s complaint.
JURISDICTION
The Sixth Circuit denied a petition for rehearing en
banc on May 13, 2020. Pet.App. 33a. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTES INVOLVED
Section 1983, 42 U.S.C. § 1983, states:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any
action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity, injunctive relief shall not be granted unless a

2
declaratory decree was violated or declaratory relief was unavailable.
STATEMENT OF THE CASE
On June 27, 2018, the Court in Janus v. AFSCME,
Council 31, 138 S. Ct. 2448 (2018) overruled Abood v.
Detroit Board of Education, 431 U.S. 209 (1977) and
held that it violates the First Amendment for states
and unions to seize agency fees from nonconsenting
employees. 138 S. Ct. at 2486. The Court explained
that “unions have been on notice for years regarding
this Court’s misgiving about Abood” and that, since at
least 2012, “any public-sector union seeking an
agency-fee provision in a collective-bargaining agreement must have understood that the constitutionality
of such a provision was uncertain.” Id. at 2484-85. The
Court also lamented the “considerable windfall” that
unions wrongfully received from employees during
prior decades, finding “[i]t is hard to estimate how
many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First Amendment.” Id. at 2486.
Petitioner Nathaniel Ogle is one such employee
whose First Amendment rights were violated. Ogle is
an employee of the Ohio Department of Taxation who
was compelled to pay agency fees to Ohio Civil Service
Employees Association, AFSCME Local 11 (“OCSEA”)

3
for several years before this Court’s decision in Janus.
Pet. App. 1a.
Shortly after Janus was decided, Ogle filed suit and
sought damages from OCSEA for agency fees it unconstitutionally seized from him and a class of similarly
situated state employees. Id. at 2a. Ogle did so under
Section 1983, which provides that “[e]very person
who, under color of any statute” deprives citizens of
their constitutional rights “shall be liable to the party
injured in an action at law[.]” 42 U.S.C. § 1983.
The district court, however, held that a so-called
“good faith defense” renders defendants who act under
color of presumptively valid statutes not liable to injured parties in an action at law. Pet.App. 20a-21a.
According to the district court, this “good faith defense
is based on equality and fairness.” Id. at 20a. The
court concluded that this ostensible defense shields
OCSEA from liability because it “collected fees under
a presumptively valid statute and pursuant to thenvalid Supreme Court precedent.” Id. at 21a.
Ogle appealed to the Sixth Circuit. While his appeal
was pending, another panel of the Sixth Circuit issued
a ruling in Lee v. Ohio Education Association, 951
F.3d 386 (6th Cir. 2020). The Lee panel held that a
good faith defense exempts unions from having to
compensate the victims of its agency fee seizures. Id.
at 391.
The Ogle panel later concluded that “[b]ecause we
have no license to overrule another panel of this court,
we too must recognize the union’s good-faith defense.”

4
Pet.App. 2a-3a. The panel, however, also sought to
identify a basis for this defense. Unlike the district
court, the panel did not find the defense to be equitable in nature. The Ogle panel held the defense could
be justified by an analogy to the common law tort of
abuse of process. Id. at 4a. According to the Ogle
panel, “this offers the best explanation for Lee and the
best way to reconcile it with our precedent and U.S.
Supreme Court precedent.” Id. at 5a.
Three other circuit courts have also held that there
is a good faith defense to Section 1983 that shields unions that acted under agency fee statutes before they
were held unconstitutional from paying damages to
employees. Wholean v. CSEA, 955 F.3d 332 (2d Cir.
2020); Janus v. AFSCME, Council 31, 942 F.3d 352
(7th Cir. 2019) (“Janus II”), petition for cert. filed No.
19-1104 (U.S. Mar. 9, 2020); Danielson v. Inslee, 945
F.3d 1096 (9th Cir. 2019), petition for cert. filed No.
19-1130 (U.S. Mar. 12, 2020). The courts, however,
cite different rationales for a good faith defense. While
the Sixth Circuit found the defense to be predicated
on a common law analogy, the Second and Ninth Circuits—like the district court here—found the defense
to be rooted in concerns about equality and fairness.
See Wholean, 955 F.3d at 334; Danielson, 945 F.3d. at
1101.
The Third Circuit rejected the good faith defense recognized by the Second, Sixth, Seventh, and Ninth Circuits in Diamond v. Pennsylvania State Education Association, 972 F.3d 262 (3d Cir. 2020). There were
three separate opinions in Diamond. Judge Rendell

5
accepted the good faith defense other circuits had recognized. 972 F.3d at 269. Judge Fisher did not, finding
it “beyond our remit to invent defenses to § 1983 liability based on our views of sound policy.” Id. at 274
(Fisher, J., concurring in the judgment). Judge Fisher,
however, found an alternative limit to retroactive liability under Section 1983 based on pre-1871 common
law history. Id. at 278. Judge Phipps rejected both a
good faith defense and Judge Fisher’s alternative
limit on Section 1983’s scope. Id. at 285 (Phipps, J.,
dissenting). Judge Phipps found that “[g]ood faith was
not firmly rooted as an affirmative defense in the common law in 1871, and treating it as one is inconsistent
with the history and the purpose of § 1983.” Id. at 289.
Taking the opinions together, a majority of the Third
Circuit panel in Diamond held there is no affirmative
good faith defense to Section 1983.
REASONS FOR GRANTING THE PETITION
Three times this Court has raised, but then not decided, the question of whether there exists a good faith
defense to Section 1983. See Richardson v. McKnight,
521 U.S. 399, 413 (1997); Wyatt v. Cole, 504 U.S. 158,
169 (1992); Lugar v. Edmondson Oil Co., 457 U.S. 922,
942 n.23 (1982). The Court should now resolve this
important question to disabuse lower courts of the
misconception that a defendant acting under color of
a statute before it is held unconstitutional is an affirmative defense to Section 1983.
That defense is not the defense members of this
Court suggested in Wyatt. Several Justices in that

6
case wrote that good faith reliance on a statute could
defeat the malice and probable cause elements of certain constitutional claims. 504 U.S. at 166 n.2 (majority opinion); id. at 172 (Kennedy, J., concurring); id.
at 176 n.1 (Rehnquist, C.J., dissenting). Those Justices were not suggesting that a defendant’s reliance
on a yet to be invalidated statute should be an affirmative defense to all Section 1983 claims for damages.
A majority of the Third Circuit panel in Diamond
recognized as much, and rejected the good faith defense recognized by the Second, Sixth, Seventh, and
Ninth Circuits. 972 F.3d at 274 (Fisher, J., concurring
in the judgment); id. at 289-90 (Phipps, J., dissenting).
The Court should resolve this disagreement amongst
circuit courts over the existence of this defense.
This is especially so because a good faith defense
cannot be reconciled with Section 1983’s text, which
makes acting “under color of any statute” an element
of the statute that renders defendants “liable to the
party injured in an action at law.” 42 U.S.C. § 1983.
Nor can the defense be reconciled with this Court’s
retroactivity doctrine. See Reynoldsville Casket Co. v.
Hyde, 514 U.S. 749, 753-54 (1995).
The different rationales cited for a good faith defense—either equitable principles or an analogy to an
abuse-of-process tort—are both untenable. Courts
cannot create equitable exemptions to congressionally
enacted statutes like Section 1983. And even if they
could, fairness to victims of constitutional deprivations supports enforcing the statute as written. As for

7
common law analogies, a First Amendment claim for
compelled subsidization of speech is not so akin to an
abuse of a judicial process as to justify importing that
tort’s malice and probable cause elements into a First
Amendment speech claim.
The Court should reject the proposition that a defendant relying on a state law before it is invalidated
exempts the defendant from compensating injured
parties under Section 1983. It is important that the
Court do so. Unless corrected, the lower courts’ misapprehension of Wyatt will cause tens of thousands of
victims of agency fee seizures to go uncompensated for
their injuries. It will also result in victims of other constitutional deprivations not being made whole for
their injuries. The petition should be granted.
A. The Wyatt Court Did Not Suggest That a
Defendant’s Reliance on a Statute Should Be
an Affirmative Defense to Section 1983.
Section 1983 provides a cause of action for the “deprivation of any rights, privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983.
The elements of different constitutional deprivations
vary considerably. “In defining the contours and prerequisites of a § 1983 claim . . . courts are to look first
to the common law of torts.” Manuel v. City of Joliet,
137 S. Ct. 911, 920 (2017).
The claim in Wyatt was that a private defendant deprived the plaintiff of due process of law when seizing
his property under an ex parte replevin statute. 504

8
U.S. at 161. The Court found the plaintiff’s due process claims analogous to “malicious prosecution and
abuse of process,” and recognized that at common law
“private defendants could defeat a malicious prosecution or abuse of process action if they acted without
malice and with probable cause.” Id. at 164–65; see id.
at 172–73 (Kennedy, J., concurring) (similar).
The Court in Wyatt held that “[e]ven if there were
sufficient common law support to conclude that respondents . . . should be entitled to a good faith defense, that would still not entitle them to what they
sought and obtained in the courts below: the qualified
immunity from suit accorded government officials . . .
.” Id. at 165. The reason was, the “rationales mandating qualified immunity for public officials are not applicable to private parties.” Id. at 167. Wyatt left open
whether Section 1983 defendants could raise “an affirmative defense based on good faith and/or probable
cause.” Id. at 168–69.
The good faith defense suggested in Wyatt was not a
broad statutory reliance defense to all Section 1983
damages claims, as some courts have concluded. See,
e.g., Janus II, 942 F.3d at 366. Rather, several Justices suggested a defense to Section 1983 claims in
which malice and lack of probable cause are elements
for establishing damages. This is clear from all three
opinions in Wyatt.
Chief Justice Rehnquist, in his dissenting opinion
joined by Justices Thomas and Souter, explained it is

9
a “misnomer” to use the term good faith “defense” because “under the common law, it was plaintiff’s burden to establish as elements of the tort both that the
defendant acted with malice and without probable
cause.” 504 U.S. at 176 n.1 (citation omitted). “Referring to the defendant as having a good faith defense is
a useful shorthand for capturing plaintiff’s burden
and the related notion that a defendant could avoid
liability by establishing either a lack of malice or the
presence of probable cause.” Id.
Justice Kennedy, in his concurring opinion joined by
Justice Scalia, agreed that “it is something of a misnomer to describe the common law as creating a good
faith defense; we are in fact concerned with the essence of the wrong itself, with the essential elements
of the tort.” Id. at 172. Justice Kennedy explained that
“[t]the common-law tort actions most analogous to the
action commenced here are malicious prosecution and
abuse of process,” and that in both actions “it was essential for the plaintiff to prove that the wrongdoer
acted with malice and without probable cause.” Id.
Justice Kennedy found that because “a private individual’s reliance on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law . . . lack of probable cause can
only be shown through proof of subjective bad faith.”
Id. at 174.
Finally, Justice O’Connor’s majority opinion in Wyatt recognized that the good faith defense discussed in
the dissenting and concurring opinions was in reality
a defense to a plaintiff proving malice and lack of

10
probable cause. Id. at 166 n.2. The majority opinion
found that “[o]ne could reasonably infer from the fact
that a plaintiff’s malicious prosecution or abuse of process action failed if she could not affirmatively establish both malice and want of probable cause that
plaintiffs bringing an analogous suit under § 1983
should be required to make a similar showing to sustain a § 1983 cause of action.” Id.
On remand in Wyatt, the Fifth Circuit recognized
that this Court “focused its inquiry on the elements of
these torts.” Wyatt v. Cole, 994 F.2d 1113, 1119 (5th
Cir. 1993). It therefore found “that plaintiffs seeking
to recover on these theories were required to prove
that defendants acted with malice and without probable cause.” Id. The Third and Second Circuits followed suit in cases also arising from abuses of judicial
processes and held the defendants could defeat the
malice and probable cause elements of those claims by
showing good faith reliance on a statute. See Jordan
v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250,
1276 & n.31 (3d Cir. 1994); Pinsky v. Duncan, 79 F.3d
306, 312–13 (2d Cir. 1996).
More recently, Judge Fisher of the Third Circuit recognized that the defense discussed in Wyatt is
“whether the defendant acted with malice and without probable cause.” Diamond, 972 F.3d at 278-79
(Fisher, J., concurring in the judgment). Judge Fisher
recognized that this defense does not “appl[y] categorically to all cases involving private-party defendants,”
but rather depends on the claim at issue. Id. at 279.
Judge Phipps similarly recognized that Chief Justice

11
Rehnquist’s discussion of a good faith defense “actually referred to elements of the common-law torts of
malicious prosecution and abuse of process,” and that
he “identified no authority for the proposition that
good faith functions as transsubstantive affirmative
defense–applicable across a broad class of claims . . .”
Id. at 287 (Phipps, J., dissenting).
The Second, Sixth, Seventh, and Ninth Circuits
erred in interpreting Wyatt to signal that it should become an affirmative defense to Section 1983 for a defendant to rely on a statute before it is held unconstitutional. See Wholean, 955 F.3d at 334-35; Pet.App.
3a; Janus II, 942 F.3d at 366; Danielson, 945 F.3d at
1101-02. The Court in Wyatt was suggesting nothing
of the sort. Indeed, such a statutory reliance defense
would conflict with both Section 1983’s plain language
and this Court’s retroactivity doctrine.
B. A Good Faith Defense Conflicts with Section
1983’s Text and Retroactivity Law.
1. A Good Faith Defense Conflicts with Section
1983’s Text.
Section 1983 states, in relevant part, that “[e]very
person who, under color of any statute, ordinance, regulation, custom, or usage, of any State” deprives a citizen of a constitutional right “shall be liable to the
party injured in an action at law, suit in equity, or
other proper proceeding for redress.” 42 U.S.C. § 1983
(emphasis added). Section 1983 means what it says.
“Under the terms of the statute, ‘[e]very person who
acts under color of state law to deprive another of a

12
constitutional right [is] answerable to that person in
a suit for damages.’” Rehberg v. Paulk, 566 U.S. 356,
361 (2012) (quoting Imbler v. Pachtman, 424 U.S. 409,
417 (1976)).
It turns Section 1983 on its head to conclude that
persons who act under the color of state laws that are
later held unconstitutional are not liable to the injured parties in a suit for damages. The proposition
effectively makes a statutory element of Section
1983—that defendants must act under color of state
law—a defense to Section 1983.1 An affirmative defense predicated on a defendant’s reliance on a state
law cannot be reconciled with Section 1983’s plain language.
The Court rejected a comparable defense over one
hundred years ago in Myers v. Anderson, 238 U.S. 368
(1915). There, the Court held that a statute violated
the Fifteenth Amendment’s ban on racial discrimination in voting. Id. at 380. The defendants argued that
they were not liable for money damages under Section
1983 because they acted on a good faith belief that the
statute was constitutional. The Court noted that
“[t]he nonliability . . . of the election officers for their
official conduct is seriously pressed in argument.” Id.
at 378. The Court rejected the contention for being
contrary to its decision in Guinn v. United States, 238
1 Defendants in Section 1983 actions will almost always act
under color of state laws that have not been held invalid at the
time, because it is difficult for a party to invoke a state law that
a court has already declared to be unconstitutional.

13
U.S. 347 (1915) and “the very terms” of the statute. Id.
at 379 (emphasis added).2
It is telling that the Sixth Circuit here, as well as the
Second, Seventh, and Ninth Circuits, made no attempt to square a good faith defense with Section
1983’s text. In fact, the Seventh Circuit’s only response to the argument that it violates Section 1983’s
text to deem a defendant’s reliance on state law an affirmative defense to this statute was to claim this
Court “abandoned” strictly following Section 1983’s
language when recognizing immunities. Janus II, 942
F.3d at 362.
To the contrary, th Court has held that “[w]e do not
simply make our own judgment about the need for immunity,” and “do not have a license to create immunities based solely on our view of sound policy.” Rehberg,
566 U.S. at 363. The Court accords an immunity only
when a “tradition of immunity was so firmly rooted in
the common law and was supported by such strong
policy reasons that ‘Congress would have specifically
so provided had it wished to abolish the doctrine’
when it enacted Section 1983.” Richardson, 521 U.S.
2

The lower court, whose judgment this Court affirmed, was
more explicit in its reasoning:
[A]ny state law commanding such deprivation or abridgment is nugatory and not to be obeyed by any one; and any
one who does enforce it does so at his known peril and is
made liable to an action for damages in the suit, and no
allegation of malice need be alleged or proved.
Anderson v. Myers, 182 F. 223, 230 (C.C.D. Md. 1910).

14
at 403 (quoting Wyatt, 504 U.S. at 164). Unlike with
immunities, “there is no common-law history before
1871 of private parties enjoying a good-faith defense
to constitutional claims.” Janus II, 942 F.3d at 364;
see Diamond, 972 F.3d at 288 (finding “[a] good faith
defense is inconsistent with the history of the Civil
Rights Act of 1871”) (Phipps, J., dissenting); William
Baude, Is Qualified Immunity Unlawful?, 106 Cal. L.
Rev. 45, 55 (2018) (finding “[t]here was no well-established, good faith defense in suits about constitutional
violations when Section 1983 was enacted, nor in Section 1983 suits early after its enactment.”). Thus, unlike with immunities, there is no justification for deviating from Section 1983’s mandate that “[e]very person who, under color of any statute” deprives a citizen
of a constitutional right “shall be liable to the party
injured in an action at law.” 42 U.S.C. § 1983.
2. A Good Faith Defense Conflicts with This
Court’s Retroactivity Doctrine.
Janus has retroactive effect under the rule this
Court announced in Harper v. Virginia Department of
Taxation, 509 U.S. 86, 97 (1993). The good faith defense the Sixth Circuit and other courts have fashioned to defeat Janus’ retroactive effect is indistinguishable from the reliance defense this Court held
invalid for violating retroactivity principles in Reynoldsville Casket.
Reynoldsville Casket concerned an Ohio statute that
effectively granted plaintiffs a longer statute of limitations for suing out-of-state defendants. 514 U.S. at

15
751. This Court had earlier held the statute unconstitutional. Id. An Ohio state court, however, permitted
a plaintiff to proceed with a lawsuit that was filed under the statute before this Court invalidated it. Id. at
751-52. The plaintiff asserted this was a permissible,
equitable remedy because she relied on the statute before it was held unconstitutional. Id. at 753 (describing the state court’s remedy “as a state law ‘equitable’
device [based] on reasons of reliance and fairness”).
This Court rejected that contention, holding the state
court could not do an end run around retroactivity by
creating an equitable remedy based on a party’s reliance on a statute later held unconstitutional by this
Court. Id. at 759.
The Sixth Circuit engaged in just such an end run
here. It created a defense based on a defendant’s reliance on a statute before it was effectively deemed unconstitutional by a decision of this Court. A good faith
reliance defense is incompatible with this Court’s retroactivity doctrine.
C. Circuit Courts Disagree on Whether There
Is a Good Faith Defense and the Justifications for That Defense.
A majority of the opinions in Diamond rejected the
good faith defense recognized by the Second, Sixth,
Seventh, and Ninth Circuits. 972 F.3d at 274 (Fisher,
J., concurring in the judgment); id. at 289-90 (Phipps,
J., dissenting). While Judge Fisher found a different
exemption to retroactive liability under Section 1983,

16
see id. at 284,3 the relevant point here is that the circuit courts disagree on whether there exists an affirmative good faith defense to Section 1983. The Court
should resolve that disagreement.
Even the circuit courts that have recognized a good
faith defense disagree on the basis for that defense.
The Sixth Circuit held that it “looks to the most closely
analogous tort at common law in deciding whether
private defendants may assert a good-faith defense to
certain § 1983 claims.” Pet.App. 4a. The Court concluded that OCSEA could assert the defense because
“abuse of process is the most plausible common-law
tort analogue to employees’ post-Janus First Amendment claims.” Id.
The Seventh Circuit in Janus II stated that the
“search for the best [tort] analogy is a fool’s errand.”
942 F.3d at 365. The court found “reasonable argu-

3 Judge Fisher’s limit on retroactive liability under Section
1983 and a good faith defense have different elements and rationales. The latter is purported to be an affirmative defense that
applies when a defendant relies in good faith on presumptively
valid law, see Pet.App. 4a, and is based on equitable interests or
a tort analogy, see infra 17-18. Judge Fisher found, based on pre1871 common law history, that a court decision that invalidates
a statute or overrules a decision does not generate Section 1983
liability “except where duress or fraud was present.” Diamond,
972 F.3d at 284. Judge Fisher’s proffered limit on Section 1983’s
scope is untenable for the reasons stated by Judge Phipps in his
dissent in Diamond, 972 F.3d at 287-88, and because it conflicts
with this Court’s retroactivity doctrine.

17
ments for several different torts,” though it was “inclined to agree . . . that abuse of process comes closest.”
Id. Ultimately, the Seventh Circuit chose to “leave
common-law analogies behind.” Id. at 366.
The Ninth Circuit in Danielson also held a good faith
defense is not rooted in common law. 945 F.3d at 1101.
The court held “the availability of the defense arises
out of general principles of equality and fairness—values that are inconsistent with rigid adherence to the
oft-arbitrary elements of common law torts as they
stood in 1871.” Id.4 According to the Ninth Circuit,
“[i]t would be an odd result for an affirmative defense
grounded in concerns for equality and fairness to
hinge upon historical idiosyncrasies and strained legal analogies for causes of action with no clear parallel
in nineteenth century tort law.” Id. However, the
Court alternatively held that, if common law analogies mattered, “abuse of process provides the best
analogy to Plaintiffs’ claim.” Id. at 1102.
The lower courts’ struggle to agree upon a basis for
recognizing a good faith defense is additional reason
for the Court to grant review. This is especially true
given that neither equity nor common law analogies
support recognizing this defense to Section 1983.
In Diamond, Judge Fisher recognized that courts
cannot just “invent defenses to § 1983 liability based
on our views of sound policy.” 972 F.3d at 274 (Fisher,
4

The Second Circuit also cited equality and fairness as a justification for a good faith defense. Wholean, 955 F.3d at 335.

18
J., concurring in the judgment). He also found “the
torts of abuse of process and malicious prosecution
provide at best attenuated analogies” to a First
Amendment compelled speech claim. Id. at 280. Judge
Phipps rejected both rationales for a good faith defense. 972 F.3d at 288-90 (Phipps, J., dissenting). As
discussed below, Judge Phipps was right. Neither equity nor a tort analogy can justify creating this new
affirmative defense to Section 1983.
1. Policy Interests in Fairness and Equality Do
Not Justify a Good Faith Defense.
a. Courts cannot refuse to enforce federal statutes
because they believe it unfair to do so. “As a general
matter, courts should be loath to announce equitable
exceptions to legislative requirements or prohibitions
that are unqualified by the statutory text.” Guidry v.
Sheet Metal Workers Nat’l Pension Fund, 493 U.S.
365, 376 (1990). “It is for Congress to determine
whether § 1983 litigation has become too burdensome
. . . and if so, what remedial action is appropriate.”
Tower v. Glover, 467 U.S. 914, 922–23 (1984). The
“fairness” rationale for a good faith defense to Section
1983 is inadequate on its own terms.
In any event, fairness to victims of constitutional
deprivations requires enforcing Section 1983’s text as
written. It is not fair to make employees pay for unconstitutional union conduct. Nor is it fair to let
wrongdoers keep ill-gotten gains. “[E]lemental notions of fairness dictate that one who causes a loss

19
should bear the loss.” Owen v. City of Indep., 445 U.S.
622, 654 (1980).
The Court wrote those words in Owen when holding
that Section 1983’s legislative purposes did not justify
extending good faith immunity to municipalities. The
Court’s reasons for so holding apply here.
First, the Court reasoned that “many victims of municipal malfeasance would be left remediless if the city
were also allowed to assert a good-faith defense,” and
that “[u]nless countervailing considerations counsel
otherwise, the injustice of such a result should not be
tolerated.” Id. at 651 (footnote omitted). So too here.
It would be an injustice to leave innocent victims of
agency fee seizures and other constitutional violations
remediless for their injuries.
Second, the Court recognized that Congress enacted
Section 1983 to “serve as a deterrent against future
constitutional deprivations.” Id. “The knowledge that
a municipality will be liable for all of its injurious conduct, whether committed in good faith or not, should
create an incentive for officials who may harbor
doubts about the lawfulness of their intended actions
to err on the side of protecting citizens’ constitutional
rights.” Id. at 651–52. This deterrence interest also
weighs against a reliance defense, which will encourage defendants to risk infringing on constitutional
rights by limiting their exposure for so doing.
Third, the Owen Court reasoned that “even where
some constitutional development could not have been
foreseen by municipal officials, it is fairer to allocate

20
any resulting financial loss” to the entity that caused
the harm “than to allow its impact to be felt solely by
those whose rights, albeit newly recognized, have
been violated.” Id. at 655. So too here. It is not fair to
have Ogle pay for OCSEA’s unconstitutional conduct.
Equity favors requiring OCSEA to return the monies
it unconstitutionally seized from him.
b. As for the proposition that principles of “equality”
justify extending to private defendants a defense similar to the immunity enjoyed by some public defendants, see Danielson, 945 F.3d at 1101, that proposition
makes little sense. That unions are not entitled to
qualified immunity is not reason to create a similar
defense for unions. Courts do not award defenses to
parties as consolation prizes for failing to meet the criteria for an immunity.
Even if principles of equality required treating
OCSEA like its closest government counterpart, that
still would not entitle it to an immunity-like defense.
A large organization like OCSEA is nothing like individual persons who enjoy qualified immunity. The
OCSEA is most like a governmental body that lacks
qualified immunity—a municipality. Owen, 445 U.S.
at 654. “It hardly seems unjust to require a municipal
defendant which has violated a citizen’s constitutional
rights to compensate him for the injury suffered
thereby.” Id. Nor is it unjust to require a large organization, like the OCSEA, to compensate citizens for violating their constitutional rights.

21
Neither fairness nor equality justifies recognizing a
good faith defense to Section 1983. Rather, both principles weigh against carving this exemption into Section 1983’s remedial framework.
2. An Analogy to Abuse of Process Does Not
Justify Creating a Good Faith Defense.
“Common-law principles are meant to guide rather
than to control the definition of § 1983 claims.” Manuel, 137 S. Ct. at 921. “Sometimes . . . [a] review of
common law will lead a court to adopt wholesale the
rules that would apply in a suit involving the most
analogous tort. But not always.” Id. at 920-21. Some
Section 1983 claims have no common law equivalent.
“[Section] 1983 is not simply a federalized amalgamation of pre-existing common-law claims.’” Id. at 921
(quoting Rehberg, 566 U.S. at 366).
A First Amendment claim for compelled subsidization of speech has no common law equivalent. “Compelling a person to subsidize the speech of other private speakers” violates the First Amendment because
it undermines “our democratic form of government”
and leads to individuals being “coerced into betraying
their convictions.” Janus, 138 S. Ct. at 2464. This injury is unlike that caused by common law torts. It is
peculiar to the First Amendment.
A violation of First Amendment speech rights is
nothing like an abuse of process tort. “[T]he tort of
abuse of process requires misuse of a judicial process.”
Tucker v. Interscope Records Inc., 515 F.3d 1019, 1037
(9th Cir. 2008). The tort exists to protect the integrity

22
of the judicial process and to protect litigants from
harassment. See 8 Am. Law of Torts § 28:32 (2019).
The tort does not exist, as First Amendment does, “to
foreclose public authority from assuming a guardianship of the public mind through regulating the press,
speech, and religion.” Thomas v. Collins, 323 U.S. 516,
545 (1945) (Jackson, J., concurring).
Abuse of process is certainly not so similar to a compelled subsidization of speech claim to justify making
malice and lack of probable cause elements of that constitutional claim. And that is the only potential relevance of common law analogies—to determine
whether to import a tort’s elements into a particular
Section 1983 claim. See Manuel, 137 S. Ct. at 920-21.
Malice and lack of probable cause are not elements
of a First Amendment claim under Janus. Under Janus, a union deprives employees of their First Amendment rights by taking their money without affirmative consent. 138 S. Ct. at 2486. A union’s intent when
doing so is immaterial. The limited good faith defense
members of this Court suggested in Wyatt offers no
protection to unions that violated dissenting employees’ First Amendment rights under Janus.
D. It Is Important That the Court Finally
Resolve Whether Congress Provided a Good
Faith Defense to Section 1983.
Section 1983 is the nation’s preeminent civil rights
statute and is often used by citizens to protect their
constitutional rights. It is no small matter when lower

23
courts create a new affirmative defense to Section
1983 liability.
Several circuit courts have now done just that based
largely on the misconception that this Court in Wyatt
signaled that private defendants should be granted a
defense to Section 1983 liability akin to qualified immunity. Yet Wyatt did not suggest such a defense, but
only suggested that reliance on a statute could defeat
the malice and lack-of-probable cause elements of certain due process claims. See supra 7-11. The Court
should clarify what it meant in Wyatt.
It is important the Court act quickly because
whether tens of thousands of victims of agency fee seizures can receive compensation hangs in the balance.
Over thirty-seven (37) class action lawsuits are pending that seek refunds from unions for agency fees they
seized from workers in violation of their First Amendment rights. See Amicus Br. of Goldwater Inst. et al.,
4, Janus v. AFSCME, Council 31, No. 19-1104 (Apr. 9,
2020). The vast majority of these cases are in or from
the Second, Sixth, Seventh, and Ninth Circuits, which
have accepted a good faith defense. Id. at 1a-6a (listing cases). Most individual actions seeking a return of
agency fees also are in these circuits. See id. at 7a-9a.
The employees in these suits should be permitted to
recover a portion of the “windfall,” Janus, 138 S. Ct.
at 2486, of compulsory fees unions wrongfully seized
from them. But without this Court’s review, these employees will likely be denied relief.

24
The importance of the question presented extends
beyond victims of agency fee seizures to victims of
other constitutional deprivations. The Sixth Circuit
acknowledged that its decision could shield from liability defendants that invoke state law processes to
discriminate against individuals on the basis of race,
gender, or faith. Pet.App. 5a.
The purpose of Section 1983 is to provide a remedy
to citizens whose constitutional rights are violated by
actions taken under color of state law. See Diamond,
972 F.3d at 288-89 (Phipps, J., dissenting). A good
faith defense is inconsistent with that purpose. Id.
The Court should grant review to repudiate this ostensible new defense to Section 1983.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
OCTOBER 8, 2020

WILLIAM MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION
8001 Braddock Rd., Suite
Springfield, VA, 22160
(703) 321-8510
wlm@nrtw.org

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________
No. 19-3701
_________
Nathaniel Ogle,
Plaintiff-Appellant,
v.
Ohio Civil Service Employees Association,
AFSCME Local 11, AFL-CIO
Defendant-Appellee.
_________
Appeal from the United States District Court for the
Southern District of Ohio.
No. 2:18-cv-01227 – George C. Smith, District Judge
_________
Argued: January 30, 2020
Decided and Filed: March 5, 2020
_________
Before: SUTTON, BUSH, and READLER, Circuit Judges.
_________
OPINION
PER CURIAM
Nathaniel Ogle works for the Ohio Department of
Taxation. He is not a member of the Ohio Civil Service
Employees Association, the union that represents the
Department’s employees in collective bargaining with

2a
the State of Ohio. Under state law, the union may require non-members like Ogle to pay “fair share” fees
to defray the cost of collective-bargaining activities.
Ohio Rev. Code Ann. § 4117.09(C).
Between July 2015 and February 2018, the State deducted these fees from his pay without consent. In
July 2018, the Supreme Court held that compulsory
“fair share” fees violate the First (and Fourteenth)
Amendment free-speech rights of public employees.
Janus v. AFSCME, Council 31, ––– U.S. ––––, 138 S.
Ct. 2448, 2486, 201 L.Ed.2d 924 (2018). In the process,
the Court overruled Abood v. Detroit Board of Education, 431 U.S. 209, 97 S.Ct. 1782, 52 L.Ed.2d 261
(1977), which had authorized such fees.
A few months later, Ogle filed this § 1983 action
against the union on free speech grounds. Through
this class-action lawsuit, he seeks a refund of the fees
he and others paid from 2015 through 2018.
The union moved to dismiss the lawsuit on the
ground that it relied on Abood in good faith when it
collected the fees. The district court granted the union’s motion to dismiss. Ogle appealed.
In a separate appeal from a separate case, our court
recently joined two other circuits in holding that public-sector unions that collected “fair share” fees in reliance on Abood may assert a good-faith defense to §
1983 lawsuits that seek the return of those fees. Lee
v. Ohio Educ. Ass’n, No. 19-3250, 951 F.3d 386, 387–
88, 2020 WL 881265, at *1 (6th Cir. Feb. 24, 2020); see
Janus v. AFSCME, Council 31, 942 F.3d 352, 364–66
(7th Cir. 2019); Danielson v. Inslee, 945 F.3d 1096,
1098–99 (9th Cir. 2019).
Because we have no license to overrule another

3a
panel of this court, we too must recognize the union’s
good-faith defense. One feature of today’s case, however, requires a brief addendum. The claimant in Lee
conceded the existence of a good-faith defense. 951
F.3d at 391–92, 2020 WL 881265, at *4. Ogle does not.
He objects to its validity. Up-front challenges to the
good-faith defense and arguments about its scope
have plenty of overlap to be sure. But Ogle raises a
point not squarely addressed in Lee. That prompts a
few words about the basis for the defense and its application here.
Ogle’s objection runs up against the reality that this
circuit has long recognized a good-faith defense to certain § 1983 claims. See Duncan v. Peck, 844 F.2d 1261,
1266–67 (6th Cir. 1988). So have members of the Supreme Court. In Wyatt v. Cole, five justices agreed
that private parties may assert a good-faith defense or
good-faith immunity to some § 1983 lawsuits—there,
a due process claim challenging the seizure of disputed property. See 504 U.S. 158, 170, 112 S.Ct. 1827,
118 L.Ed.2d 504 (1992) (Kennedy, J., concurring,
joined by Scalia, J.); id. at 176–77, 112 S.Ct. 1827
(Rehnquist, C.J., dissenting, joined by Souter and
Thomas, J.J.).
The defense emerges from an interpretation of §
1983. The statute’s silence about defenses or immunities requires an inquiry into the historical context
from which the statute emerged, including the limitations on comparable actions that existed at common
law. Wyatt, 504 U.S. at 170–72, 112 S.Ct. 1827 (Kennedy, J., concurring); Pierson v. Ray, 386 U.S. 547,
554–57, 87 S.Ct. 1213, 18 L.Ed.2d 288 (1967). Congress enacted the 1871 law against the backdrop of
“common-law principles, including defenses previously recognized in ordinary tort litigation.” City of

4a
Newport v. Fact Concerts, Inc., 453 U.S. 247, 258, 101
S.Ct. 2748, 69 L.Ed.2d 616 (1981). That is why the
Court “look[s] to the common law for guidance” to decide when a public official enjoys immunity from lawsuits under § 1983, not to “freewheeling policy
choice[s].” Malley v. Briggs, 475 U.S. 335, 340, 342,
106 S.Ct. 1092, 89 L.Ed.2d 271 (1986). And that is why
this circuit looks to the most closely analogous tort at
common law in deciding whether private defendants
may assert a good-faith defense to certain § 1983
claims. Duncan, 844 F.2d at 1263–64, 1266–68.
Lee explained that abuse of process is the most plausible common-law tort analogue to employees’ postJanus First Amendment claims. 951 F.3d at 392 n.2,
2020 WL 881265, at *4 n.2. The Seventh and Ninth
Circuits agree. Danielson, 945 F.3d at 1102; Janus,
942 F.3d at 365. Under that analogy, the union may
avoid liability by showing good-faith reliance on
Abood and the Ohio law that permitted the collection
of these fees. See Duncan, 844 F.2d at 1267–68. Think
about the problem this way. Public-sector unions may
enlist the State’s help (and its ability to coerce unwilling employees) to carry out everyday functions. But a
union that misuses this help, say because the stateassisted action would violate the U.S. Constitution,
may face liability under § 1983. See Danielson, 945
F.3d at 1102; cf. Thomas Cooley, A Treatise on the Law
of Torts 189 (1879) (defining abuse of process at common law as the “willful[ ]” use of process “for a purpose
not justified by the law”). A narrow good-faith defense
protects those who unwittingly cross that line in reliance on a presumptively valid state law—those who
had good cause in other words to call on the governmental process in the first instance. Wyatt, 504 U.S.
at 176 & n.1, 112 S.Ct. 1827. Unions that used the

5a
States’ authority to extract “fair share” fees from nonmembers may in retrospect have crossed into forbidden territory, 138 S. Ct. at 2486, but if they did so before Janus they may invoke the good-faith defense because Abood and state law told them they were in the
clear. All of this offers the best explanation for Lee and
the best way to reconcile it with our precedent and
U.S. Supreme Court precedent.
Any other approach runs the risk of sweeping in
more than necessary. How else to distinguish cases in
which a State discriminated in other ways—say based
on race, gender, or faith rather than political perspective? In these other settings, we can’t imagine that a
court would hesitate to award damages to the claimants in the amount of a discriminatory charge even if
the entity relied on a 40-year-old Supreme Court precedent and a state law, and even if the request went
back several years. Cf. NLRB v. Actors’ Equity Ass’n,
644 F.2d 939, 943 (2d Cir. 1981) (permitting the recoupment of five years’ worth of fees that discriminated based on nationality and that violated the National Labor Relations Act). Most claims for discrimination on the basis of race, gender, or faith do not depend on the use or misuse of state-law process but on
other grounds of state action. That said, the hard
question left by this case is what would happen if the
discrimination involved state-law process and turned
on these other forms of discrimination. What’s good
for one, it would seem, ought to be good for the other.
We affirm.

6a
APPENDIX B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF OHIO
_________
No. 2:18-cv-1227
_________
Nathaniel Ogle,
Plaintiff,
v.
Ohio Civil Service Employees Association,
AFSCME Local 11, AFL-CIO
Defendant.
_________
Judge George C. Smith
_________
OPINION AND ORDER
This matter is before the Court upon Defendant’s
Motion to Dismiss (the “Motion”) (Doc. 12). The motion is fully briefed and ripe for disposition. For the
following reasons, the Motion is GRANTED.
I. BACKGROUND
Nathaniel Ogle has been employed by the Ohio Department of Taxation since 2011. (Doc. 1, Compl. ¶
13). Since the beginning of his employment, Ogle has
been subject to the exclusive representation of the
Ohio Civil Service Employees Association, AFSCME,
Local 11 (“OCSEA”) and the terms of the collective
bargaining agreements OCSEA enters into with the

7a
State of Ohio. (Id. at ¶ 6). Ogle is not, and never has
been, a member of the OCSEA. (Id. at ¶ 7). Ohio’s Public Employees’ Collective Bargaining Act (the “Act”),
Ohio Revised Code § 4117, authorizes exclusive representatives and public employers to enter into agency
fee provisions that require, as a condition of employment, “that the employees in the unit who are not
members of the employee organization pay to the employee organization a fair share fee.” Ohio Rev. Code
§ 4117.09(C). (Id. at ¶ 8). The Act further provides
that “[t]he deduction of a fair share fee by the public
employer from the payroll check of the employee and
its payment to the employee organization is automatic
and does not require the written authorization of the
employee.” Id. OCSEA’s collective bargaining agreements with the State of Ohio for the term of July 1,
2015 to February 28, 2018, which governs Ogle’s employment, contains a compulsory fee clause that dictates:
Any bargaining unit employee who has served an initial sixty (60) days and who has not submitted a voluntary membership dues deduction authorization
form to the Employer shall, tender to the Union a
representation service fee beginning in the pay period that includes the 61st day. The amount shall
not exceed the dues paid by similarly situated members of the employee organization who are in the
bargaining unit. The Union shall continue to provide an internal rebate procedure which provides for
a rebate of expenditures in support of partisan politics or ideological causes not germane to the work of
employee organizations in the realm of collective
bargaining. When an employee enters the bargaining unit for any reason, the Employer shall notify

8a
the employee of this Article and provide the employee the appropriate deduction forms. Fair share
fee deductions shall begin after sixty (60) days of
service. The Employer shall tender to the Union a
representation service fee beginning in the pay period that includes the 61st day.
(Id. at ¶ 9). Ogle was compelled to pay fair share fees
to OCSEA pursuant this clause, which were automatically deducted from his paycheck. (Id. at ¶ 10).
OCSEA’s collective bargaining agreements with other
public employers in Ohio also contain forced fee
clauses that compel nonmembers of the union to pay
fees to the union as a condition of their employment.
(Id. at ¶ 11). On June 27, 2018, the Supreme Court
held forced fee requirements to be unconstitutional
under the First Amendment and that unions could not
constitutionally collect union dues or fees from public
employees without their affirmative consent. (Id. at ¶
12); Janus v. AFSCME, Council 31, ––– U.S. ––––,
138 S. Ct. 2448, 2486, 201 L.Ed.2d 924 (2018).
Following Janus, OSCEA ceased the collection of
mandatory fair share fees and has indicated that it
has no intention to re-instate the collection of such
fees in the future. (Doc. 12-2, Ex. 1, Letter to David
Blair at 1); (Doc. 12-2, Decl. of Christopher Mabe at
3).
II. STANDARDS OF REVIEW
Federal Rule of Civil Procedure 12(b)(1) provides for
dismissal when the court lacks subject matter jurisdiction. Without subject matter jurisdiction, a federal
court lacks authority to hear a case. Thornton v. Sw.
Detroit Hosp., 895 F.2d 1131, 1133 (6th Cir. 1990). Motions to dismiss for lack of subject matter jurisdiction
fall into two general categories: facial attacks and factual attacks. United States v. Ritchie, 15 F.3d 592, 598

9a
(6th Cir. 1994). A facial attack under Rule 12(b)(1)
“questions merely the sufficiency of the pleading,” and
the trial court therefore takes the allegations of the
complaint as true. Wayside Church v. Van Buren Cty.,
847 F.3d 812, 816 (6th Cir. 2017) (quoting Ohio Nat’l
Life Ins. Co. v. United States, 922 F.2d 320, 325 (6th
Cir. 1990)). To survive a facial attack, the complaint
must contain a short and plain statement of the
grounds for jurisdiction. Rote v. Zel Custom Mfg. LLC,
816 F.3d 383, 387 (6th Cir. 2016).
A factual attack is a challenge to the factual existence of subject matter jurisdiction. No presumptive
truthfulness applies to the factual allegations. Glob.
Tech., Inc. v. Yubei (XinXiang) Power Steering Sys.
Co., 807 F.3d 806, 810 (6th Cir. 2015). When examining a factual attack under Rule 12(b)(1), “the court can
actually weigh evidence to confirm the existence of the
factual predicates for subject-matter jurisdiction.”
Glob. Tech., Inc. v. Yubei (XinXiang) Power Steering
Sys. Co., 807 F.3d 806, 810 (6th Cir. 2015) (quoting
Carrier Corp. v. Outokumpu Oyj, 673 F.3d 430, 440
(6th Cir. 2012)). The plaintiff has the burden of establishing jurisdiction in order to survive the motion to
dismiss. DLX, Inc. v. Kentucky, 381 F.3d 511, 516 (6th
Cir. 2004); Moir v. Greater Cleveland Regional Transit
Auth., 895 F.2d 266, 269 (6th Cir. 1990).
Defendant also brings their motion pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure, alleging that Plaintiff has failed to state a claim upon
which relief can be granted.
Under the Federal Rules, any pleading that states a
claim for relief must contain a “short and plain statement of the claim” showing that the pleader is entitled
to such relief. Fed. R. Civ. P. 8(a)(2). To meet this
standard, a party must allege sufficient facts to state

10a
a claim that is “plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007). A claim will be considered “plausible on its face” when a plaintiff sets forth “factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009).
Rule 12(b)(6) allows parties to challenge the sufficiency of a complaint under the foregoing standards.
In considering whether a complaint fails to state a
claim upon which relief can be granted, the Court
must “construe the complaint in the light most favorable to the plaintiff, accept its allegations as true, and
draw all reasonable inferences in favor of the plaintiff.” Ohio Police & Fire Pension Fund v. Standard &
Poor’s Fin. Servs. LLC, 700 F.3d 829, 835 (6th Cir.
2012) (quoting Directv, Inc. v. Treesh, 487 F.3d 471,
476 (6th Cir. 2007)). However, “the tenet that a court
must accept a complaint’s allegations as true is inapplicable to threadbare recitals of a cause of action’s elements, supported by mere conclusory statements.”
Iqbal, 556 U.S. at 663, 129 S.Ct. 1937. Thus, while a
court is to afford plaintiff every inference, the pleading must still contain facts sufficient to “provide a
plausible basis for the claims in the complaint”; a recitation of facts intimating the “mere possibility of misconduct” will not suffice. Flex Homes, Inc. v. Ritz-Craft
Corp of Mich., Inc., 491 F. App’x 628, 632 (6th Cir.
2012); Iqbal, 556 U.S. at 679, 129 S.Ct. 1937.
III. DISCUSSION
In the Complaint, Ogle prays for prospective relief
in the form of an injunction preventing OCSEA from
collecting mandatory fair share fees and a declaration
that the Act is unconstitutional. (Doc. 1, Compl. ¶¶

11a
26(b)–(d)). Ogle also prays for retroactive damages in
the form of a refund of the fees collected by OCSEA
before Janus was decided. (Id. at ¶ 26(e)). Ogle additionally prays for nominal damages. (Id. at ¶ 26(f))
In the Motion, OCSEA challenges Ogle’s subject
matter jurisdiction pursuant to Federal Rule of Civil
Procedure 12(b)(1) for lack of standing with regards to
the requests for prospective relief. (Doc. 12, Def.’s Mot.
at 5). OCSEA challenges Ogle’s claims for damages
pursuant to Federal Rule of Civil Procedure 12(b)(6)
for failure to state a claim upon which relief can be
granted. (Id. at 10). This Court will address each of
these arguments in turn.
A. Plaintiff Lacks Standing to Seek Prospective
Relief
OCSEA argues that Ogle lacks standing for prospective relief because OCSEA no longer collects mandatory fair share fees and therefore it is not likely that
OCSEA will harm him in the future. Ogle counters
that, because the Act is still in effect, he has standing.
This Court agrees with OCSEA.
The jurisdiction of the federal courts is limited. Article III § 2 of the United States Constitution grants
the federal courts jurisdiction only over specified
“cases” or “controversies.” Absent a live “case or controversy,” a federal court has no subject matter jurisdiction and the case must be dismissed. This “case or
controversy” requirement gives rise to the concept of
standing. See Lujan v. Defenders of Wildlife, 504 U.S.
555, 559–60, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).
In order to establish constitutional standing, a
plaintiff must demonstrate the following: (a) that it
has suffered an “injury in fact,” a harm that is “concrete and particularized” and “actual or imminent, not

12a
conjectural or hypothetical;” (b) a causal connection
between the injury and the challenged conduct; and
(c) that a favorable court decision is likely to redress
or remedy the injury. Lujan, 504 U.S. at 560–61, 112
S.Ct. 2130; Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 102–103, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998). “This triad of injury in fact, causation, and redressability constitutes the core of Article III’s caseor-controversy requirement, and the party invoking
federal jurisdiction bears the burden of establishing
its existence.” Steel Co., 532 U.S. at 103–104, 121
S.Ct. 1281.
At its core, the doctrine of standing requires the
plaintiff to allege “a distinct and palpable injury to
himself.” Warth v. Seldin, 422 U.S. 490, 501, 95 S.Ct.
2197, 45 L.Ed.2d 343 (1975). The injury must be particularized to the plaintiff and concrete, not abstract,
conjectural, or hypothetical. See City of Los Angeles v.
Lyons, 461 U.S. 95, 101–02, 103 S.Ct. 1660, 75
L.Ed.2d 675 (1983). When seeking prospective relief,
evidence of past injury alone is insufficient to establish standing. Crawford v. United States Dep’t of
Treasury, 868 F.3d 438, 455 (6th Cir. 2017), cert. denied sub nom. Crawford v. Dep’t of Treasury, ––– U.S.
––––, 138 S. Ct. 1441, 200 L.Ed.2d 717 (2018). An individual requesting prospective relief must show that
there is a future threat of suffering harm that is “real
and immediate and not premised upon the existence
of past injuries alone.” Gaylor v. Hamilton Crossing
CMBS, 582 F. App’x 576, 579 (6th Cir. 2014) (citing
Lyons, 461 U.S. at 102-03, 103 S.Ct. 1660).
An illustrative example is the Sixth Circuit’s decision in Sumpter v. Wayne Cty, 868 F.3d 473 (6th Cir.
2017). In Sumpter, the plaintiff requested injunctive
and declaratory relief pursuant to a county jail’s strip

13a
search policy. Sumpter, 868 F.3d at 490. The Sixth
Circuit found that the plaintiff did not have standing
for two reasons: 1) the plaintiff had left jail and could
not prove there was a likelihood she would return
(“she left the jail in November 2012, and we can only
speculate as to whether she will ever return”), and 2)
the jail had since changed its policy regarding strip
searches (“[t]he likelihood of future injury is further
diminished by the fact that defendants have changed
their official policy to prohibit group strip searches”).
Id. at 491. The Sixth Circuit emphasized that in the
context of injunctive or declaratory relief, “ ‘[P]ast exposure to illegal conduct ... unaccompanied by any
continuing, present adverse effects,’ will not suffice to
establish ‘a present case or controversy.’ ” Id. at 491
(quoting Lyons, 461 U.S. at 102, 103 S.Ct. 1660). The
Court found that past exposure to illegal conduct “is
precisely what the plaintiff alleges[.]” Id.
The case at hand is analogous to Sumpter because
OCSEA has changed its mandatory fee collection policy in light of Janus and is no longer collecting mandatory fair share fees. Ogle cites no evidence that
there is a likelihood of OCSEA collecting mandatory
fair share fees again. Rather, Ogle only argues that
OCSEA “could” reinstate their former policy. (Doc. 13,
Resp. at 1) (“The argument fails because the statute
remains in existence and OCSEA could resume its fee
seizures pursuant to the statute.”). Like in Sumpter,
this fear of further injury is speculative at best. Also
like Sumpter, OCSEA has officially changed its policy
and has stopped collecting mandatory fair share fees.
(Doc. 12-2, Ex. 1, Letter to David Blair at 1) (“we are
hereby requesting that the Employer cease collecting
Fair Share Fees as of June 27, 2018 to be in compliance with the Court’s decision in Janus.”). Further,

14a
OCSEA issued a statement that they have no intention of collecting such fees in the future in light of Janus. (Doc. 12-2, Decl. of Christopher Mabe at 3)
(“OCSEA understands that, as the Supreme Court
has ruled in Janus, fair share requirements in public
sector employment are now unconstitutional. OCSEA
will fully comply with the Court’s decision, and understands that any provisions of state law or of collective
bargaining agreements that purport to authorize such
fair share fees in the public sector are no longer enforceable.”). Id. Finally, as OCSEA points out, the
state’s cooperation is needed for the collection of mandatory fair share fees. (Doc. 12, Def.’s Mot. at 7–8). In
other words, the state would have to be complicit in
ignoring the law set forth in Janus. This further decreases the chance that OCSEA will violate Ogle’s
First Amendment rights again.
This Court is not the first to consider the issue of
whether plaintiffs can sue for prospective relief after
Janus. In Lee v. Ohio Educ. Ass’n, 366 F. Supp. 3d 980
(N.D. Ohio 2019) the court found that the plaintiff’s
“request for injunctive relief is moot.” Id. at 981. In
reaching this conclusion, the court stepped in line
with other district courts and stated “ ‘the Supreme
Court’s new and controlling precedent ... announced a
broad rule invalidating every state law permitting
agency fees to be withheld.’ ” Id. at 982 (quoting Lamberty v. Connecticut State Police Union, No. 3:15-cv378, 2018 WL 5115559, at *9 (D. Conn. Oct 19,
2018)).1
The Northern District of Ohio is not the only district
court to have considered this issue. A plethora of district courts have addressed this issue and have found
that the plaintiffs either lacked standing or the case
1

15a
While Lee held that the plaintiff’s claims were moot,
here, Ogle lacks standing. However, because “mootness is just standing set in a time frame,’ ” the logic of
Lee is useful here. Sumpter, 868 F.3d at 490 (quoting
U.S. Parole Comm’n v. Geraghty, 445 U.S. 388, 397,
100 S.Ct. 1202, 63 L.Ed.2d 479 (1980)). In other
words, a case becomes moot when an actual controversy existed when a plaintiff brought suit but later
ceased to exist; a case lacks standing when no controversy exists when the plaintiff brings suit. Id. Because
Ogle brought this case post Janus, no controversy existed when Ogle sued. Thus, Ogle lacks standing.
Ogle contends that he does have standing and relies
on a line of cases following the Supreme Court’s decision in Obergefell v. Hodges, ––– U.S. ––––, 135 S.Ct.
2584, 192 L.Ed.2d 609 (2015). (Doc. 13, Response at
2). In these cases, various courts issued injunctions
that prevented states from enforcing restrictive marriage laws following Obergefell. Ogle argues that the
current situation following Janus is similar to the
cases following Obergefell. However, OCSEA counters
that the Obergefell comparisons are not appropriate.
This Court agrees with OCSEA.
First, the Obergefell line of cases addressed issues
ancillary to the heart of the Obergefell decision. For
example, while Obergefell invalidated marriage laws
became moot post Janus. See Babb v. California
Teachers Association, No. 218CV06793JLSDFM, 2019
WL 2022222 (C.D. Cal. May 8, 2019); Sweeney v.
Madigan, 359 F. Supp. 3d 585 (N.D. Ill. 2019); Hartnett v. Pennsylvania State Education Association, No.
1:17-cv-100, 390 F.Supp.3d 592, 2019 WL 2160404
(M.D. Penn. 2019).

16a
of four states, one of the cases that Ogle cites involved
name changes on same-sex couples driver’s licenses.
Rosenbrahn v. Daugaard, 799 F.3d 918, 922 (8th Cir.
2015) (“the [Supreme] Court did not determine all issues raised by Plaintiffs here (for example, namechanges on driver’s licenses)”). The remaining cases
Ogle cites to support the Obergefell comparison have
similar problems—they address issues that are ancillary to the Obergefell decision. This differs from the
case at hand because Janus prohibits the exact behavior that Ogle seeks to enjoin. Ogle requests declaratory and injunctive relief from the collection of mandatory fair share fees; that is precisely what Janus
prohibits.
Second, the language in Obergefell specifically invalidated laws in four states, but not other states’ marriage laws. Rosenbrahn, 799 F.3d at 922 (“The Court
invalidated laws in Michigan, Kentucky, Ohio, and
Tennessee—not South Dakota.”). However, the language in Janus places no such limitations on its holding. Janus, 138 S. Ct. at 2486 (“States and public-sector unions may no longer extract agency fees from
nonconsenting employees”). This Court agrees that
“cases survived post-Obergefell because courts concluded that specific, state statutes had not been the
subject of the decision by the Court in Obergefell. The
same cannot be said here.” Lee, 366 F. Supp. 3d at 982.
Finally, Ogle argues that an injunction is proper in
the case at hand because the Janus decision imposes
no legal obligation directly on OCSEA. (Doc. 13, Response at 2). While the Supreme Court’s decision does
not bind OCSEA specifically, it broadly prohibits unions from collecting mandatory fair share fees, which
encompasses OCSEA’s activity. Further, this argu-

17a
ment is unpersuasive because the lack of a binding legal obligation on one party does not establish standing
for the other party.
For the above reasons, Ogle “has not shown that he
‘has sustained or is immediately in danger of sustaining some direct injury as a result of the challenged official conduct and [that] the injury or threat of injury
[is] both real and immediate, not conjectural or hypothetical.’ ” Bailey v. City of Howell, 643 F. App’x 589,
602 (6th Cir. 2016) (quoting Lyons, 461 U.S. at 101–
02, 103 S.Ct. 1660). Therefore, Ogle lacks standing for
injunctive or declaratory relief and the Motion, as it
relates to those claims, is GRANTED.
B. Plaintiff Cannot Establish Defendant’s Liability for Retroactive Relief
Ogle brings claims pursuant to § 1983 of Title 42 of
the United States Code for OCSEA to repay fees attributable to the time prior to the Janus decision.
OCSEA argues that it is entitled to a good faith defense and thus, Ogle has failed to state a claim upon
which relief can be granted. (Doc. 12, Def’s. Mot. at
10). Ogle counters that the good faith defense is not
applicable in this case, but even if it is, OCSEA has
not acted in good faith. (Doc. 13, Response at 3–18).
§ 1983 of Title 42 of the United States Code imposes
civil liability on individuals who act under the color of
state law and deprive a citizen of their constitutional
rights. See Brosseau v. Haugen, 543 U.S. 194, 197–98,
125 S.Ct. 596, 160 L.Ed.2d 583 (2004). For a plaintiff
to state a claim under § 1983, they must show: 1) their
constitutional right(s) have been violated and 2) a person acting under the color of state law caused the violation. Baynes v. Cleland, 799 F.3d 600, 607 (6th Cir.
2015). OCSEA does not dispute either prong of this

18a
analysis—that Ogle’s constitutional rights were violated or that OCSEA acted under the color of state
law. However, OCSEA does assert a good faith defense.
In Lugar v. Edmondson Oil Co. the Supreme Court
held that private actors could be sued under § 1983.
457 U.S. 922, 942, 102 S.Ct. 2744, 73 L.Ed.2d 482
(1982). However, the Court did not address whether
private parties, like their government counterparts,
are entitled to qualified immunity. Id. at 942, 102
S.Ct. 2744 n.23 (“We need not reach the question of
the availability of such a defense to private individuals at this point.”). Ten years later, in Wyatt v. Cole,
the Supreme Court held that qualified immunity is
not available to private actors sued under § 1983. 504
U.S. at 168–69, 112 S.Ct. 1827, 118 L.Ed.2d 504
(1992) (“The precise issue encompassed in this question ... is whether qualified immunity, as enunciated
in Harlow [v. Fitzgerald, 457 U.S. 800, 102 S.Ct. 2727,
73 L.Ed.2d 396 (1982) ], is available for private defendants faced with § 1983 liability for invoking a
state replevin, garnishment, or attachment statute.
That answer is no.”). However, in dicta the Court indicated that a “good faith” defense may be available to
private actors. Id. at 169, 112 S.Ct. 1827 (“we do not
foreclose the possibility that private defendants faced
with § 1983 liability under Lugar, could be entitled to
an affirmative defense based on good faith and/or
probable cause”). The Supreme Court reasoned that
while the rationales underlying qualified immunity do
not extend to private parties, it may be unfair for a
government actor to have access to qualified immunity while private parties have no protection from liability for following the law. Id. at 168, 112 S.Ct. 1827.

19a
On remand, the Fifth Circuit found that private parties do have such a good faith defense. Wyatt v. Cole,
994 F.2d 1113, 1115 (5th Cir. 1993) (“we now hold that
plaintiffs seeking to hold private actors liable under
Lugar, must demonstrate that defendants failed to act
in good faith ...”).
Even without the Supreme Court’s explicit endorsement, the Sixth Circuit adopted the good faith defense. Vector Research, Inc. v. Howard & Howard Attorneys P.C., 76 F.3d 692, 699 (6th Cir. 1996) (“[the
Fifth Circuit] held that private persons who act under
color of law may assert a good faith defense. The Third
Circuit has agreed. Now, so do we.”) (internal citations
omitted). However, the Sixth Circuit has not supplied
further guidance on the specific contours of the defense. Without further guidance from the Sixth Circuit, and because the Sixth Circuit cited Wyatt in
adopting the defense, this Court looks to the Fifth Circuit and other courts’ interpretations to determine the
contours and rationale supporting the good faith defense.
The Fifth Circuit, drawing from the Supreme
Court’s decision in Wyatt, found that “principles of
equality and fairness” support the idea that “private
defendants ‘should have some protection for liability.’
” Wyatt, 994 F.2d at 1118 (quoting Wyatt, 504 U.S. at
168, 112 S.Ct. 1827). See also Babb v. California
Teachers Association, No. 2:18CV06793, 2019 WL
2022222 at *7 (C.D. Cal. May 8, 2019) (stating that
Wyatt based the good faith defense on principles of equity and fairness). Similarly, other courts have
acknowledged that equality and fairness are the pillars of the good faith defense. See Danielson v. AFSCME, Council 28, AFL-CIO, 340 F. Supp. 3d 1083,

20a
1085 (W.D. Wash. 2018) (“Although the precise contours of the defense have not been clearly defined by
the Supreme Court, circuit courts, including the Ninth
Circuit, have acknowledged its general contours of equity [sic] and fairness.”); Mooney v. Illinois Education
Association, 372 F. Supp. 3d 690, 703 (C.D. Ill. 2019)
(“The principles of fairness and equality underlying
the good-faith defense in the § 1983 context ...”). Relying on these principles, the Fifth Circuit held: “private
defendants sued on the basis of Lugar may be held liable for damages under § 1983 only if they failed to
act in good faith in invoking the unconstitutional state
procedures, that is, if they either knew or should have
known that the statute upon which they relied was
unconstitutional.” Wyatt, 994 F.2d at 1118.
Thus, in the wake of Wyatt, it is clear that the good
faith defense and qualified immunity are not based on
similar rationales. Qualified immunity is supported
by “ ‘a tradition of immunity [omitted] so firmly rooted
in the common law and [omitted] supported by such
strong policy reasons ...’ ” whereas the good faith defense is based on equality and fairness. Wyatt, 504
U.S. at 164, 112 S.Ct. 1827 (quoting Owen v. City of
Independence, 445 U.S. 622, 637, 100 S.Ct. 1398, 63
L.Ed.2d 673 (1980)); see also Richardson v. McKnight,
521 U.S. 399, 403-04, 117 S.Ct. 2100, 138 L.Ed.2d 540
(1997) (discussing the rationales supporting qualified
immunity).
In the case at hand, the good faith defense protects
OCSEA. OCSEA collected mandatory fair share fees
pursuant to a presumptively valid Ohio statute. Further, OCSEA was entitled to rely upon the findings of
the Supreme Court in Abood v. Detroit Bd. Of Ed., 431
U.S. 209, 97 S.Ct. 1782, 52 L.Ed.2d 261 (1977). Abood
held that unions could collect mandatory fair share

21a
fees. See 431 U.S. 209, 97 S.Ct. 1782, 52 L.Ed.2d 261
(1977). Because OCSEA collected fees under a presumptively valid statute and pursuant to then-valid
Supreme Court precedent, there is no way that
OCSEA “knew or should have known that the statute
upon which they relied was unconstitutional.” Wyatt,
994 F.2d at 1118. Put another way—OCSEA was
simply following presumptively valid law.
When a government official acts pursuant to a presumptively valid law that later becomes unconstitutional, qualified immunity offers them protection because it is objectively reasonable to follow the law. See
Leonard v. Robinson, 477 F.3d 347, 366 (6th Cir. 2007)
(“the Sixth Circuit has resisted imposing liability on
police officers and other officials who fail to anticipate
each twist and turn of judicial review.”). The principles of equality and fairness, upon which the good
faith defense is premised, demand that some protection be afforded to private actors in such a scenario.
Therefore, this is precisely the type of case the Supreme Court and the Fifth Circuit had in mind when
establishing the good faith defense; the defense protects OCSEA in this case.
This Court is not alone in addressing this issue. Similarly situated plaintiffs have filed suit in other courts
and this Court’s colleagues have ruled that the good
faith defense is available to unions who collected mandatory fair share fees prior to Janus. See e.g., Lee v.
Ohio Education Association, 366 F. Supp. 3d 980
(N.D. Ohio 2019); Danielson v. AFSCME, Council 28,
AFL-CIO, 340 F. Supp. 3d 1083 (W.D. Wash. 2018);
Mooney, 372 F. Supp. 3d 690; Crockett v. NEA-Alaska,
367 F. Supp. 3d 996 (D. Alaska 2019). This Court can
find no reason to depart from these courts on this issue.

22a
Ogle advances several arguments against the availability of the good faith defense. Ogle argues: 1) the
good faith defense does not apply in First Amendment
cases, 2) OCSEA is not entitled to qualified immunity,
3) OCSEA tries to mask qualified immunity as a good
faith defense, and 4) OCSEA is not entitled to a good
faith defense because it is an entity and municipalities are not entitled to qualified immunity. Finally,
Ogle argues that even if the good faith defense applies, OCSEA did not act in good faith and he is entitled to discovery on OCSEA’s subjective state of mind.
(Doc. 13, Response at 3-18). This Court does not find
any of Ogle’s arguments persuasive.
First, Ogle argues that the good faith defense is not
available here because OCSEA’s subjective state of
mind is irrelevant when determining if they committed a First Amendment violation. (Doc. 13, Response
at 5). In other words, because a First Amendment violation does not require specific intent, whether
OCSEA acted in good faith or bad faith is irrelevant.
Ogle’s argument is premised on the idea that the good
faith defense is only available in cases where the underlying violation has a subjective component. This
Court disagrees with that interpretation of the good
faith defense.
Ogle pulls his argument from a discussion in Duncan and Wyatt where the courts analyze the good faith
defenses available to parties at common law. (Doc. 13,
Response at 8) (“Duncan and subsequent cases recognized only ‘a common law good faith defense to malicious prosecution and wrongful attachment cases’ ”)
(quoting Duncan v. Peck, 844 F.2d 1261, 1267 (6th Cir.
1988)). The availability of qualified immunity is
partly based on whether parties were immune from
suit at common law before Congress enacted § 1983,

23a
and in Duncan and Wyatt the courts discussed these
common law defenses to determine if the parties had
qualified immunity. Duncan, 844 F.2d at 1264 (“Thus
the Supreme Court has adopted a two-part test to determine whether a particular immunity is consistent
with the intent of § 1983. The first part requires the
party claiming immunity to show that the immunity
was recognized at common law ...”); Carey v. Inslee,
364 F. Supp.3d 1220, 1229 (W.D. Wash. 2019) (“while
the Court did discuss common law analogues in dicta,
that discussion was largely in reference to the history
of qualified immunity.”). The courts found that even
though private parties had a defense at common law
that would negate subjective components of the tort,
private parties were not entitled to qualified immunity because the policy rationales underlying qualified
immunity did not apply to private parties. Wyatt, 504
U.S. at 167, 112 S.Ct. 1827 (“the reasons for recognizing such an immunity were based not simply on the
existence of a good faith defense at common law, but
on the special policy concerns involved in suing government officials ... the rationales mandating qualified immunity for public officials are not applicable to
private parties.”) (internal citations omitted). After
this discussion about qualified immunity, the Wyatt
court then stated that the absence of qualified immunity for private parties did not preclude the availability
of a separate good faith defense. Id. at 169, 112 S.Ct.
1827. The Fifth Circuit, on remand, then made clear
that the good faith defense was available based on
equality and fairness. Wyatt, 994 F.2d at 1118. Thus,
the discussions of good faith defenses at common law
and the current availability of the good faith defense
to § 1983 claims were separate from one another and
must be viewed as such. For this reason, Ogle’s claim

24a
that the First Amendment is not subject to the good
faith defense is misguided. Put simply, Ogle misconstrues a discussion on qualified immunity to apply to
the good faith defense.
Further, the Fifth Circuit announced a broad rule in
Wyatt—it did not limit the defense to claims that had
a subjective component or common law tort analogue
with subjective component. Carey, 364 F. Supp.3d at
1229 (“Wyatt did not clearly limit the good faith defense to § 1983 claims with specific common law analogues.”). Requiring a subjective component for the
good faith defense to apply would only undercut the
purpose of the defense. See Mooney, 372 F. Supp.3d at
703 (“Quibbles over which tort as it existed at common
law in 1871 is most analogous to the harm wrought by
the statute in question would only undercut these purposes.”). Because the good faith defense is based on
the principles of equality and fairness, this Court can
think of no reason why it should be limited to certain
types of claims.
This Court is not alone in taking this approach.
Other similarly situated plaintiffs have argued that
courts must look to the most closely analogous common law tort to determine if a good faith defense applied at common law, and only if so could the defendant exercise a good faith defense to a § 1983 claim. See
Danielson, 340 F. Supp.3d 1083; Babb, No.
2:18CV06793, 2019 WL 2022222; Mooney, 372 F.
Supp. 3d 690; Nemo v. City of Portland, 910 F. Supp
491 (D. Ore. 1995). Those plaintiffs invoke the same
rationale that Ogle does: good faith can only negate a
subjective component of the claim, and if the underlying common law tort did not allow for a good faith defense, then a constitutional tort should not offer a good
faith defense either. However, those plaintiffs are

25a
similarly misguided because the analysis of common
law tort analogues was a part of the qualified immunity analysis, not the good faith analysis.2 The qualified
immunity analysis and good faith defense are separate; attempting to find a good faith defense rooted in
a qualified immunity analysis is contrived. Qualified
immunity is rooted in common law tort and policy rationales. Duncan, 844 F.2d at 1264. The good faith defense is derived from equality and fairness. Wyatt, 504
U.S. at 168, 112 S.Ct. 1827.
For these reasons, it is irrelevant that the First
Amendment violation lacks a subjective component. It
would be manifestly unfair to grant qualified immunity to a public official who, following a state statute,
violates a citizens’ First Amendment rights when a
similarly situated private actor would be exposed to
liability. See Nemo, 910 F. Supp. at 499 (analyzing a
private actor as “stepping into the shoes of a government agent” when relying upon a First Amendment
ordinance). Thus, the equality and fairness rationales
that underly the purpose of the good faith defense are
at play here and, despite Ogle’s claims to the contrary,
the defense applies.
As for Ogle’s second argument, this Court agrees

It is worth noting that even if this Court were required to draw a common law analogy, the good faith
defense would still be available. The closest common
law tort would be one with a dignitary component,
such as abuse of process or defamation. See Carey, 364
F. Supp. 3d at 1230; Danielson, 340 F. Supp. 3d at
1086. Therefore, the good faith reliance by OCSEA on
a state statute would negate the underlying subjective
component of the tort.
2

26a
with him that OCSEA, as a private entity, is not entitled to qualified immunity. See Vector, 76 F.3d 692
(1996). However, the unavailability of qualified immunity has no effect on the availability of OCSEA’s
good faith defense. Nemo, 910 F. Supp. at 498 (“private defendants might be entitled to a defense of good
faith reliance upon a statute, even though such defendants cannot assert qualified immunity.”).
Third, Ogle argues that OCSEA is masking qualified
immunity as a good faith defense because OCSEA is
asking that the good faith defense apply as a matter
of law. In other words, Ogle argues that OCSEA is
asking for an objective analysis which is reserved for
qualified immunity and unavailable to OCSEA.
Just because the good faith defense applies here as
a matter of law does not change the fact that OCSEA’s
defense is rooted in good faith not qualified immunity.
Ogle’s argument ignores the reality that the two doctrines perform different functions: qualified immunity
is immunity from suit, the good faith defense is a defense to liability. See Wyatt, 504 U.S. at 166, 112 S.Ct.
1827 (“Harlow established an ‘immunity from suit rather than a mere defense to liability’ ”) (emphasis in
original) (quoting Mitchell v. Forsyth, 472 U.S. 511,
526, 105 S.Ct. 2806, 86 L.Ed.2d 411 (1985)). OCSEA
is not asking for immunity from suit, they are using a
defense to protect them against liability. This Court is
not performing a qualified immunity analysis rooted
in traditional common law and the policy rationales
for qualified immunity; nor is this Court granting
OCSEA immunity from suit. Thus, Ogle’s attempt to
paint OCSEA’s good faith defense as qualified immunity falters.
Fourth, Ogle argues that the good faith defense is
not available to OCSEA because it is an entity, and if

27a
drawing a comparison to qualified immunity, qualified immunity is not available to municipalities. (Doc.
13, Response at 12–13). This argument is unpersuasive because, once again, Ogle confuses qualified immunity with the good faith defense. Had the Supreme
Court found that private actors are entitled to qualified immunity then his argument would hold more
weight. However, the Supreme Court found that qualified immunity is not available to private actors, but a
good faith defense might be. The underlying rationales for qualified immunity and the good faith defense
are not the same. Wyatt 504 U.S. at 168, 112 S.Ct.
1827 (“[Qualified immunity] rationales are not transferable to private parties. Although principles of
equality and fairness may suggest, as respondents argue, that private citizens ... should have some protection from liability, as do their government counterparts”). Because the good faith defense and qualified
immunity are based on fundamentally different principles, comparing the availability of the good faith defense to the availability of qualified immunity is an
exercise in futility. See Mooney, 372 F. Supp. 3d at
704-705 (discussing why the policy rationales underlying the unavailability of qualified immunity for municipalities are not applicable to the good faith defense
for private entities). The principles that support the
good faith defense for private individuals are equally
applicable to private institutions. Thus, private entities that rely upon a presumptively valid state statute
have protection from liability should that statute later
turn out to be unconstitutional.3
For argument purposes, even if the good faith defense was not available to private entities, the end result would not change. Municipalities can only be held
3

28a
Finally, Ogle argues that, even if a good faith defense is available, OCSEA was not acting in good faith
because the Supreme Court hinted that it would overturn Abood, and OCSEA should have known that
their conduct was unconstitutional from these overtures. (Doc. 13, Response at 13-18). Ogle’s argument
is problematic because it would require private parties to “[read] the tea leaves of Supreme Court dicta”
and that “has never been a precondition to good faith
reliance on governing law.” Cook v. Brown, 364 F.
Supp. 3d 1184, 1192 (D. Ore. 2019). As another court
stated: “Any subjective belief [the union] could have
had that [Abood] was wrongly decided and should be
overturned would have amounted to telepathy.” Winner v. Rauner, No. 15 CV 7213, 2016 WL 7374258 *5
(N.D. Ill. 2016). In short, it is patently unfair to expect
private actors to be able to predict the future of constitutional law. See Danielson, 340 F. Supp.3d at 1086
(“the Union Defendant should not be expected to have
known that Abood was unconstitutional, because the
Supreme Court had not yet so decided.”).
There are other concerns with Ogle’s position. Notably, this Court believes that it would have a chilling
liable if they are “deliberately indifferent” to the constitutional rights of its citizens. City of Canton, Ohio
v. Harris, 489 U.S. 378, 387, 109 S.Ct. 1197, 103
L.Ed.2d 412 (1989). If a private entity is acting pursuant to a presumptively valid state statute, it cannot be
said that they are deliberately indifferent to the constitutional rights of citizens. For that reason, even accepting Ogle’s argument that a good faith defense is
not available to an entity, this Court could not say
that OCSEA was deliberately indifferent because they
were acting pursuant to a valid state statute.

29a
effect on private actors. For if private actors can be
liable for relying on then constitutionally valid state
statutes, they may, due to a fear of future liability, refrain from acting. Even with some sign or hint from
the Supreme Court that the state of constitutional law
may change, it could have an adverse effect on the actions of private parties. For example, if OCSEA had
stopped collecting fair share fees based on the Supreme Court’s warnings, and the Supreme Court
never returned to the issue, then OCSEA would have
forgone constitutionally proper conduct out of a fear
that constitutional law may change. This cannot be
the rule.
Lastly, Ogle’s position would undermine the role of
the judiciary and place the burden of constitutional
interpretation on private parties. Carey, 364 F. Supp.
3d at 1231 (“Plaintiff’s approach would have the practical effect of destabilizing the role of the judiciary”).
It is the judiciary’s role to determine what is, and
what is not, constitutional. Marbury v. Madison, 5
U.S. 137, 177, 1 Cranch 137, 2 L.Ed. 60 (1803). If
OCSEA can be liable based on its own interpretation
of the constitution, then this Court is essentially asking OCSEA to “become constitutional scholars tasked
with deciding if they truly agree with the Supreme
Court’s reasoning to avoid future liability.” Carey, 364
F. Supp. 3d at 1231. Again, this cannot be the rule.
Finally, Ogle argues that, even if the good faith defense applies in this case, Ogle is entitled to discovery
because the OCSEA has provided no evidence of its
state of mind showing good faith. OCSEA counters
that reliance on a statute establishes good faith as a
matter of law. This Court agrees with OCSEA.
Some support for Ogle’s argument is found in
caselaw because, typically, subjective states of mind

30a
are shown through discovery. Vector, 76 F.3d at 699
(“Any good faith defense must, however, be resolved
on remand and not on this Rule 12 motion to dismiss.”). See also Duncan, 844 F.2d at 1266 (“A good
faith defense, on the other hand, is likely to be based
in large part on the facts of the case, with the suit only
being dismissed after trial, or on summary judgment
if the defendant can show that there is no material
dispute as to the facts”). However, it is, as a matter of
law, reasonable to rely on a presumptively valid statute. Wyatt, 504 U.S. 158, 174, 112 S.Ct. 1827, 118
L.Ed.2d 504 (1992) (J. Kennedy, concurring) (“there is
support in the common law for the proposition that a
private individual’s reliance on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law”). It would be unreasonable to expose OCSEA to discovery when discovery would not change the fact that OCSEA was
simply following the existing law. As the court in Danielson stated:
the Union Defendant should not be expected to have
known that Abood was unconstitutional, because
the Supreme Court had not yet so decided. Inviting
discovery on the subjective anticipation of an unpredictable shift in the law undermines the importance
of observing existing precedent and ignores the possibility that prevailing jurisprudential winds may
shift. This is not a practical, sustainable or desirable
model. The good faith defense should apply here as
a matter of law.
340 F. Supp.3d at 1086. For these reasons, “no amount
of discovery could show that the Union Defendant
knew or should have known something that was not
true.” Id. at 1086-87.
For the reasons discussed above, this Court finds

31a
that the good faith defense for private actors is available to OCSEA as a matter of law in this case. Because
OCSEA is entitled to the good faith defense, the Defendant’s Motion as it relates to the claims for prospective relief is GRANTED.
C. Plaintiff is Not Entitled to Nominal Damages
Lastly, Ogle argues that if he is not entitled to compensatory damages, then he is at least entitled to
nominal damages so that his constitutional rights are
observed. (Doc. 13, Response at 18). OCSEA counters
that the good faith defense is a defense to liability and
that they know of no similar case where nominal damages have been awarded in the absence of compensatory damages. (Doc. 14, Reply at 5-6 n.2). This Court
agrees with OCSEA.
This Court also can find no case dealing with nominal damages pursuant to a non-union members’ First
Amendment rights following Janus. However, examining the principles underlying nominal damages
leads this Court to the necessary outcome.
Nominal damages are awarded when a defendant is
liable for some harm but the plaintiff cannot prove an
actual injury. See Farrar v. Hobby, 506 U.S. 103, 103,
113 S.Ct. 566, 121 L.Ed.2d 494 (1992) (“petitioners
were entitled to nominal damages under Carey v.
Piphus, 435 U.S. 247, 266, 98 S.Ct. 1042, 55 L.Ed.2d
252 (1978) because they were able to establish
Hobby’s liability for denial of procedural due process,
but could not prove the actual injury necessary for a
compensatory damages award.”). Thus, for nominal
damages to be available, a plaintiff must establish the
defendant’s liability. In the case at hand, there is no
such finding of liability because the good faith defense
acts to protect OCSEA from liability. Wyatt, 994 F.2d

32a
at 1118 (“private defendants sued on the basis of Lugar may be held liable for damages under § 1983 only
if they failed to act in good faith in invoking the unconstitutional state procedures, that is, if they either
knew or should have known that the statute upon
which they relied was unconstitutional.”). Because
OCSEA neither “knew [n]or should have known that
the statute upon which they relied was unconstitutional” this Court cannot say that they are liable to
Ogle. Thus, nominal damages are unavailable.
It is undisputed that OCSEA’s prior practice of collecting mandatory fair share fees violated Ogle’s First
Amendment rights. Thus, it may seem contradictory
that this Court will not recognize that violation
through the award of nominal damages. However,
nominal damages are not merely symbolic—they
carry with them real implications. A party who is
awarded nominal damages is considered a “prevailing
party” under the law. See Farrar, 506 U.S. at 103, 113
S.Ct. 566. This designation comes with repercussions
(for example, the availability of attorney’s fees). Id.
Thus, any vindication for the violation of Ogle’s constitutional rights is not properly before this Court.
IV. CONCLUSION
For the foregoing reasons, the Motion is GRANTED.
The Clerk shall remove Document 12 from the Court’s
pending motions list. The Clerk shall enter final judgment in favor of Defendants and REMOVE this case
from the Court’s pending cases list.
IT IS SO ORDERED.
/s/ George C. Smith
GEORGE C. SMITH, JUDGE
UNITED STATES DISTRICT COURT

33a
APPENDIX X
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________
No. 19-3701
_________
Nathaniel Ogle,
Plaintiff-Appellant,
v.
Ohio Civil Service Employees Association,
AFSCME Local 11, AFL-CIO
Defendant-Appellee.
_________
Filed: May 13, 2020
_________
Before: SUTTON, BUSH, and READLER, Circuit Judges.
_________
ORDER
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
Entered By Order of the Court

